                                                   U.S. Department of Justice

                                                   Ronald C. Machen Jr.
                                                   United States Attorney for the
                                                   District of Columbia
                                                   Judiciary Center
                                                   555 Fourth St. N.W.
                                                   Washington, D.C. 20530


                                      PRESS RELEASE
FOR IMMEDIATE RELEASE                            For Information Contact:
Wednesday, August 20, 2014                       Public Affairs
                                                 (202) 252-6933
                                                 http://www.justice.gov/usao/dc/index.html

  Washington Metropolitan Area Transit Authority Pays United States
   More Than $4.2 Million to Resolve False Claims Act Allegations
                       Whistleblower’s Lawsuit Alleged Transit Agency
                             Violated Federal Contracting Rules

        WASHINGTON - The Washington Metropolitan Area Transit Authority (WMATA) has
paid $4,240,341 to resolve allegations that it filed false claims in connection with using federal
funds to impermissibly award a contract for a financial management information technology
project without using competitive procurement procedures.

       The settlement, in a lawsuit filed in the U.S. District Court for the District of Columbia,
was announced today by U.S. Attorney Ronald C. Machen Jr. and Kathryn Jones, Regional
Special Agent-in-Charge of the U.S. Department of Transportation Office of Inspector General.

        The conduct at issue involves a contract that WMATA awarded on or around July 10,
2010, to Metaformers, Inc., a Virginia-based business, to integrate the Authority’s financial and
business systems. The total cost of this integration project was approximately $14 million.
WMATA funded the project with approximately $9 million in grant funds from the Federal
Transit Administration (FTA).

        As a condition of receiving grant funds, WMATA certified that it would comply with
statutes, regulations, and FTA rules mandating full and open competition when procuring goods
and services using FTA grant funds. Also, as a condition of receiving the funds, WMATA
certified that it would not award contracts in a manner that created a conflict of interest – for
example, giving an unfair advantage to one bidder or contractor over others. WMATA allegedly
violated both the competition requirement and avoidance of “conflict of interest” rule in
awarding the financial management information technology contract.

        “The American people have a right to know that their government is following rules and
regulations in spending the taxpayers’ money,” said U.S. Attorney Machen. “Our office has
targeted government contractors who fail to meet their obligations, and this settlement shows that
we expect agencies that receive federal funding to honor the integrity of the contracting process
as well.”

         “This investigation and settlement agreement demonstrates our commitment to ensuring
the integrity of the acquisition process and protecting taxpayer dollars from waste, fraud and
abuse, which is a top priority for both the Office of Inspector General and the Department of
Transportation,” said Special Agent-In-Charge Jones. “Working with the Department, as well as
our law enforcement and prosecutorial partners, we will continue our efforts to prevent, detect,
and prosecute the improper use of federal grant funds.”

        In or around August 2009, WMATA awarded Metaformers, using full and open
competition procedures, a relatively modest contract valued at approximately $256,000 to assess
WMATA’s financial system. Less than one year later, in July 2010, WMATA awarded
Metaformers the $14 million contract to integrate the Authority’s financial and business systems.
WMATA awarded the contract non-competitively and allegedly without legitimate justification
for doing so, foreclosing an opportunity for other contractors and companies to submit proposals
for the lucrative project. WMATA’s conduct was allegedly in violation of its certification – and
commitment - to administer the FTA grant funds using full and open competition.

        In awarding the $14 million integration contract, WMATA also allegedly violated
“conflict of interest rules” governing use of FTA grant funds. WMATA’s noncompetitive award
to Metaformers was based, in part, on the work completed by Metaformers under the assessment
contract. By competitively awarding the smaller assessment contract and then non-competitively
awarding the far more lucrative integration project both to the same contractor, WMATA
violated federal procurement conflict of interest rules by giving one contractor an advantage over
others who might have been interested in competing for the integration project.

       Because of WMATA’s conduct, contractors who might have been interested in
submitting proposals or bids for the integration project never had the opportunity to do so. Thus,
WMATA’s conduct was allegedly in violation of its certification and commitment to administer
the FTA grant funds avoiding conflicts of interest in procurements.

        The settlement resolves a qui tam, or whistleblower, lawsuit filed on behalf of the
government by former WMATA employee Shahiq Khwaja, under the qui tam, or whistleblower
provisions, of the False Claims Act. The False Claims Act is one of the government’s most
powerful tools in the effort to combat fraud on federal programs. The Act allows private citizens
to bring lawsuits on behalf of the United States and share in any recovery obtained by the
government. Mr. Khwaja will receive approximately $996,480 as his share of the recovery.

        Mr. Khwaja’s qui tam lawsuit also includes allegations on behalf of Virginia and the
District of Columbia. The settlement with the federal government does not resolve the state and
local allegations.

       In February 2012, Mr. Khwaja also filed a separate complaint with the U.S. Department
of Transportation against WMATA for violating the American Recovery and Reinvestment
Act’s (ARRA) provisions protecting whistleblowers. Mr. Khwaja alleged that WMATA
terminated him from his position as an information technology functional manager because he
expressed concerns about the manner in which WMATA was financially and technically
administering the integration project which was funded, in part, with ARRA funds. In or around
August 2012, the U.S. Department of Transportation’s Office of Inspector General, based on its
separate investigation of Mr. Khwaja’s ARRA-related claims, found that the weight of evidence
indicated that Mr. Khwaja’s disclosures were a contributing factor in his termination and that
WMATA failed to show by clear and convincing evidence that it would have terminated Mr.
Khwaja notwithstanding his disclosures. As reflected in the settlement agreement, WMATA
negotiated with Mr. Khwaja’s counsel to resolve Mr. Khwaja’s wrongful termination claim for
$390,000.

        In announcing the settlement, U.S. Attorney Machen commended the work of those who
investigated the case from the Department of Transportation’s Office of Inspector General and
the Federal Transit Administration. He also acknowledged the efforts of those who worked on
the matter from the Commercial Litigation Branch of the Justice Department’s Civil Division,
including Trial Attorneys Jennifer Koh and Elizabeth Young. Finally, he expressed appreciation
for the work of those who handled the case from the U.S. Attorney’s Office, including
Investigator Karen D. Caudill, Paralegal Specialist Cindy Parker, and Assistant U.S. Attorney
Beverly M. Russell, who worked on the investigation and settlement of the matter.

        The claims settled by the agreement are allegations only, and there has been no
determination of liability. Additionally, the settlement agreement is not based on any allegation
that the contractor, Metaformers, engaged in any wrongdoing.

      The case is captioned United States, Virginia and the District of Columbia, ex rel. Shahiq
Khwaja v. Washington Metropolitan Area Transit Authority, et al., Case No. 1:12-cv-00268-RJL
(D.D.C.).



14-181

                                               ##
